No.

mv.

r- •

IN THE
!i

SUPREME COURT OF THE UNITED STATES
i

|!
A

CLARENCE OTWORTH - Petitioner
vs.

PNC BANK - Respondent

ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI
ORGINAL ACTION CASE

CLARENCE OTWORTH
187 EAST DANIELS ROAD
TWIN LAKE, MICHIGAN 49457
(231)292-1205

rH

QJ
GO
TO
CL

TWO QUESTIONS PRESENTED
For a person to be known as a customer of a bank there must be either a current
account or any sort of deposit account like a saving, team deposit, recurring deposit,
loan account or similar relation.

Banks are entitled to charge noncustomers a check cashing fee, but they should not
be allowed to charge noncustomers a check cashing fee if the noncustomers are aides
of disabled customers because disabled customers must pay the noncustomer check
cashing fee to get their deposits out of the bank.

FIRST QUESTION
IF A DISABLED CUSTOMER WRITES A CHECK PAYABLE TO
HIMSELF, AND THE NONCUSTOMER AGENT OF THE DISABLED
CUSTOMER DELIVERS THE CHECK TO THE BANK, IS THE BANK
OBLIGATED TO CASH THE CHECK AND GIVE THE MONEY TO THE
AGENT OF THE DISABLED CUSTOMER?

Clarence Otworth asserts that a bank is obligated to give the money of a
customer to the agent of the customer if the customer is the payee.
r\l
DO
CL

SECOND QUESTION
IF DISABLED CUSTOMERS ARE FORCED TO PAY THE CHECK CASHING
FEE OF BANKS ON THEIR NONCUSTMER AIDES TO GET THEIR
DEPOSITS OUT OF THE BANK IS THAT A VIOLATION OF THE
AMERICANDS WITH DISABILITIES ACT OF 1990, AS AMENDED, AND/OR
A VIOLATION OF CHAPTER 4 OF THE UNIFORM COMMERICAL CODE?
Petitioner asserts that it is definitely a violation of the Americans with
Disabilities Act of 1990, as amended (ADA), and/or Chapter 4 of the Uniform
Commercial Code (UCC), because disabled customers must pay the noncustomer
check cashing fee of banks on their noncustomer aides to get the money they
deposited in the bank out of the bank.

CO
<D

00

m

CL

PARTIES
Petitioner is an 82 year-old retired railroad conductor. He was the plaintiff In
the District Court and the appellant in the Sixth Circuit Court of Appeals. He can
no longer walk. He is a victim of the side effects of Lipitor a medicine for cholesterol
which destroyed the muscles in his legs. He has a checking account with PNC Bank.
His only source of income is a disability check of $2,116.45 that is automatically
deposited into his checking account on the first day of each month. He lives at 187
East Daniels Road, Twin Lake, Michigan 49457. Telephone: (231) 292-1205. He
brings this action on his own behalf and on behalf of all disabled Americans that
cannot travel to their bank.
Defendant PNC Bank is incorporated. Corporate headquarters is the Tower
at PNC Plaza, 300 Fifth Avenue, 29th floor, Pittsburg, Pennsylvania 15222.
Telephone: (888) 762-2265.

QJ
00
Q_

TABLE OF CONTENTS
First question presented

2

Second question presented

3

Parties

4

Petition for writ of Certiorari

7

Opinions below

7

Jurisdiction

7

Constitutional and statutory provisions involved

7

Statement of the case

8

Factual background

9

Incontrovertible facts

10

This case presents issues of fundamental national importance

12

Reason for granting the petition

12

Conclusion

14

Appendix A:

Appendix B

Appendix C

Opinion of the United States Court
of Appeals for the Sixth Circuit
(July 27, 2020)

15

Order Addressing Motions
and Dismissing the Case
(September 26, 2019)

16

Mandate
(August 18, 2020)

17
LO

<D
CIO
03

CL

TABLE OF AUTHORITIES
Fourteenth Amendment

7

U.S.C. Section 1981(a)

7

42 U.S.C. Section 1983

7

Americans with Disabilities Act of 1990, as amended

8

Chapter 4 of the Uniform Commercial

8

CD
CUD
TO
Q_

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petition for a writ of certiorari to review a decision of
the United States Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The opinion of the United States Court of Appeals appears at Appendix A of
the petition and is unpublished.
JURISDICTION
The date on which the United States Court of Appeals decided petitioner’s
case was July 27, 2020.

The case is docketed in the court of appeals as No. 19-

2188. The jurisdiction of this Court is invoked under 28 U.S.C. Section 1254 (1).
CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED
The Equal Protection Clause of Section 1 of the Fourteenth Amendment
provides that no State shall “deny to any person within its jurisdiction the equal
protection of the laws.”
42 U.S.C. Section 1981(a) states: All persons within the jurisdiction of the
United States shall have the same right in every State and Territory to make and
enforce contracts... and to the full and equal benefit of all laws and proceedings for
the security of person and property.
42 U.S.C. Section 1983 states: Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State ... subjects, or causes to be

00
Q_

subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proceeding for redress.
The Americans with Disabilities Act (ADA) became law in 1990. The ADA
is a civil rights law that prohibits discrimination against individuals with disabilities
in all area of public life, including jobs, schools, transportation, and all public and
private places that are open to the general public.
The purpose of Uniform Commercial Code (UCC) is to provide a set of
consistent regulations for the sale of goods and other related transactions. This is
especially important in interstate transactions. The Uniform Commercial Code, first
published in 1952, is one of a number of uniform acts that have been established as
law with the goal of harmonizing the laws of sales and other commercial transactions
across the United States through UCC adoption by all 52 states, the District of
Columbia, and the Territories of the United States.
STATEMENT OF THE CASE
Petitioner requests this Court to exercise its power and discretion under Rule
11 of its rules to grant a writ of certiorari to the United States Court of Appeals for
the Sixth Circuit. The case presents the question of whether or not banks violate the
Americans with disabilities Act of 1990, as amended, by charging noncustomer

00O)

0JO

CL

aides of disabled bank account holders a noncustomer check cashing fee which the
disabled bank account holders must pay to get their own deposited money out of a
bank.
FACTUAL BACKGROUND
Petitioner is an 82 year-old disabled citizen. Bom and raised in Ohio. He was
prescribed Lipitor for cholesterol. He was on the medication for 7 years. It
destroyed the muscles in his legs. He cannot walk. He is in a wheelchair. Senior
Resources, a Michigan Agency, provides him with an aide every Wednesday for two
hours to do his banking, shopping and house cleaning. He wrote his aide a check
every Wednesday. She cashed the check and purchased his food. On March 13,
2018, Defendant PNC Bank informed her that starting on April 23, 2018, it would
start charging noncustomers, such as her, a two percent checking cashing fee on the
written amount of the check. Therefore, on March 20,2018, Clarence Otworth wrote
a fifty dollar check payable to himself and gave it to his aide to present to the bank.
She also presented his letter of introduction to the bank which explained that she was
the agent of the payee, Clarence Otworth, a disabled customer (account holder), and
she was instmcted to collect his money and give it to him. The bank refused to cash
the check, but continued cashing the checks that he made payable to his aide, so the
bank could continue collecting two percent of the written amount of the check.
CT>
GO
Q_

INCONTROVERTIBLE FACTS
1. Clarence Otworth has a PNC checking account; No. 4268246309.
2. Checking accounts are called demand deposit because the check is payable on
demand when presented for payment at the bank the check is drawn on.
3. The very basis of checking accounts is that banks accept an otherwise worthless
piece of paper in lien of legal tender (cash) because the bank that holds the payer’s
money is legally required to hand over to the payee the amount written on the check.
4.

Clarence Otworth’s only income is a disability check of $2,043.20 which is

automatically deposited into his bank account by the Railroad Retirement Board on
the first day of each month.
5. Clarence Otworth cannot travel to the bank because he cannot walk. He is in a
wheelchair.
6. Arcadia, a subsidiary of Senior Resources, a Michigan agency, provides Clarence
Otworth with an aide every Wednesday for two hours to do his banking, shopping,
and house cleaning.
7.

Each Wednesday, Clarence Otworth would write his aide, Heather Chester, a

check. She would take the check to the PNC bank, located at 2351 Holton Road,
Muskegon, MI 49445, exchanges it for cash - and buy his food.
8.

Heather Chester has been doing Clarence Otworth’s banking, shopping and
O

house cleaning for over three years. On March 13, 2018, Defendant PNC Bank

■c—I
DO
Cl

informed her that it would start charging noncustomers like her a check cashing fee
of two per cent of the written amount of the check on April 23, 2018.
9. Therefore, on March 20,2018, Clarence Otworth wrote a check to himself (check
#570) for fifty dollars. He endorsed the check and gave it to Heather Chester to take
to the bank.
10. Clarence Otworth also wrote a letter of introduction for Heather Chester to take
to the bank. The letter stated that Clarence Otworth was cashing his check, not
Heather Chester.
11. Clarence Otworth’s letter also stated that Heather Chester was the Agent-of-thePayee, Clarence Otworth, a disabled customer, and she was sent to the bank to collect
the amount written on the check for the payee, Clarence Otworth.
12. Defendant PNC BANK, located at 2351 Holton Road, Muskegon, Michigan
49445, refused to cash the check of account holder Clarence Otworth and hand over
his money to Heather Chester, the agent of the payee, Clarence Otworth.
13. Clarence Otworth has a legitimate claim of entitlement to the money in his bank
account.
14. Clarence Otworth possessed a constitutionally protected property interest in his
deposits. He was deprived of that interest without due process of law.
15. On April 23,2018, Defendant PNC Bank started charging noncustomers a check
<C—I

cashing fee of two percent of the written amount of the check.

*—I
QO
CL

16.

Clarence Otworth is forced to pay the noncustomer check cashing fee of his

aide, Heather Chester, or any other agent of the payee that is a noncustomer, in order
to get his own money out of the bank.

THIS CASE PRESENTS ISSUES
OF FUNDMENTAL NATIONAL IMPORANCE
There can be no doubt that this case presents issues of great national
importance. At the most fundamental level the questions it raises is whether or not
banks violate the Americans with Disabilities Act of 1990, as amended (ADA)? A
federal civil rights law that protects people with disabilities from discrimination in
all areas of life. And whether or not banks violate Chapter 4 of the Uniform
Commercial Code (UCC) by charging the noncustomer aides of disabled customers
a check cashing fee which disabled customers must pay to get their bank deposits
out of the bank.
REASONS FOR GRANTING THE PETITION
The petition should be granted because Magistrate Judge Raymond S. Kent,
in the U.S. District Court in Grand Rapids, Michigan, and the Judicial Panel of Jane
Branstetter Stranch, Amul Roger Thapar, and Chad Andrew Readier, in the U.S.
Sixth Circuit Court of Appeals in Cincinnati, Ohio, did not want to answer the two
questions presented here:

r\l
ClO

o_

IF A DISABLED CUSTOMER WRITES A CHECK PAYABLE TO HIMSELF,
AND THE NONCUSTOMER AGENT OF THE DISABLED CUSTOMER
DELIVERS THE CHECK TO THE BANK, IS THE BANK OBLIGATED TO
CASH THE CHECK AND GIVE THE MONEY TO THE AGENT OF THE
DISABLED CUSTOMER?
Clarence Otworth asserts that banks are indeed obligated to cash the checks
of disabled customers and give the money to the agent of the disabled customer.
IF DISABLED CUSTOMERS ARE FORCED TO PAY THE CHECK CASHING
FEE OF BANKS ON THEIR NONCUSTMER AIDES TO GET THEIR
DEPOSITS OUT OF THE BANK IS THAT A VIOLATION OF THE
AMERICANDS WITH DISABILITIES ACT OF 1990, AS AMENDED, AND/OR
A VIOLATION OF CHAPTER 4 OF THE UNIFORM COMMERICAL CODE?
Clarence Otworth asserts that it is definitely a violation of the Americans with
Disabilities Act of 1990, as amended (ADA), and/or Chapter 4 of the Uniform
Commercial Code (UCC), because disabled customers must pay the noncustomer
check cashing fee of banks on their noncustomer aides to get the money they
deposited in the bank out of the bank
CO
a>
ao

co
o_

CONCLUSION
For the foregoing reasons, Clarence Otworth respectfully requests the Court to grant
his petition for a writ of certiorari.
I, Clarence Otworth, declare under penalty of perjury that the foregoing is true and
correct to the best of my knowledge.
Executed on Wednesday, August 26, 2020.
Respectfully Submitted,

Clarence Otworth
18787 East Daniels Road
Twin Lake, MI 49457
(231)292-1205

*—I

<L>
00
TO

Q_

